OIG Investigative Reports, Boston, MA., July 13, 2011 - Worcester Man Convicted of Wire Fraud Relating to Scheme to Defraud Mortgage Lending Business
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF MASSACHUSETTS
WORCESTER MAN CONVICTED OF WIRE FRAUD RELATING TO SCHEME TO DEFRAUD MORTGAGE LENDING BUSINESS
JULY 13, 2011
BOSTON, Mass. - A federal jury in Boston convicted ROBERT O. PALMER, 52, of Worcester, of a wire fraud charge arising out of a mortgage fraud scheme involving a property in Paxton, Ma.
On July 6, 2011, Palmer's wife, CLARA P. ANDRADE-PALMER, 43, of Worcester, pleaded guilty to wire fraud. She also pleaded guilty to one count of student financial aid fraud, one count of passport fraud, and two counts of social security fraud. United States District Court Judge Rya W. Zobel scheduled sentencing for both PALMER and ANDRADE-PALMER for September 28, 2011 at 2:30 p.m.
In 2001, CLARA P. ANDRADE-PALMER had been convicted of five counts of uttering forged securities, and was sentenced to 15-months in prison and ordered to pay approximately $369,000 in restitution. Following her release from federal prison, ANDRADE-PALMER fraudulently obtained a second social security account number. ANDRADE-PALMER used the fraudulently obtained social security account number in order to receive federal Stafford student loans, and a U.S. passport.
In 2006, PALMER and ANDRADE-PALMER jointly devised a scheme to defraud Accredited Home Lenders, Inc., a mortgage lending business, in order to obtain a mortgage loan to refinance their primary residence located at 39 Asnebumskit Road, in Paxton. In the application for this mortgage, PALMER and ANDRADE-PALMER made false representations regarding ANDRADE-PALMER's name, social security number, and credit history in order to conceal ANDRADE-PALMER's criminal history and outstanding restitution obligation. Based upon these false representations, Accredited Home Lenders, Inc., approved the mortgage, and approximately $333,000 was disbursed via interstate wire.
PALMER faces a maximum term of 30 years in prison on the wire fraud charge, to be followed by five years of supervised release, restitution, and a $1 million fine. ANDRADE-PALMER faces a maximum term of 30 years in prison on the wire fraud charge, 10 years on the passport fraud charge, and five years on each of the identity and education fraud charges, to be followed by five years of supervised release, restitution, and a fine of $1.75 million.
United States Attorney Carmen M. Ortiz; James P. Ennis, Special Agent in Charge of the U.S. Department of State's Diplomatic Security Service; Brian Hickey, Special Agent in Charge of the U.S. Department of Education's Office of Inspector General; Scott Antolik, Special Agent in Charge of the Social Security Administration's Office of Inspector General; and Bruce M. Foucart, Special Agent in Charge of the U.S. Immigration and Customs Enforcement's Office of Homeland Security Investigations in Boston made the announcement today. The case is being prosecuted by Assistant U.S. Attorneys Cynthia W. Lie and Maxim Grinberg of Ortiz's Major Crimes Unit.
Top
Printable view
Last Modified: 07/21/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov